Securities Sales Rep Pleads Guilty to Role in Dallas-Based Amerifirst Securities Fraud
FOR IMMEDIATE RELEASEFRIDAY, OCTOBER 19, 2007WWW.USDOJ.GOV/USAO/TXN
CONTACT: KATHY COLVINPHONE: (214)659-8600FAX: (214) 767-2898
SECURITIES SALES REP PLEADS GUILTY TO ROLE IN
DALLAS-BASED AMERIFIRST SECURITIES FRAUD
DALLAS  Vincent John Bazemore, Jr., 33, of Denton, Texas, pled guilty this morning in federal court in Dallas to securities fraud stemming from his role in fraudulent securities offerings based out of Dallas and Florida that raised approximately $55 million from investors, announced U.S. Attorney Richard B. Roper of the Northern District of Texas. Bazemore faces a maximum statutory sentence of five years in prison, a $250,000 fine, and restitution. He is scheduled to be sentenced by U.S. District Judge Barbara M.G. Lynn on February 15, 2008.
From July 2006 until January 2007, Bazemore was a sales representative of Capital 1st Financial (Capital First) at its offices in Fort Myers and Sarasota, Florida. Capital First was affiliated with AmeriFirst Funding Corporation (AmeriFirst), based in Dallas, Texas, and solicited individuals to invest in fraudulent securities offered by AmeriFirst and its affiliated companies, including secured debt obligations and collateral secured debt obligations. From January 2007 through July 2007, Bazemore operated Secured Capital Investments (Secured Capital), based in Fort Myers, and continued to solicit investors for securities offered by AmeriFirsts and its related companies.
In a related case, the United States Securities and Exchange Commission (SEC) previously filed civil fraud charges in federal court in Dallas against AmeriFirst and its principals, including Jeffrey C. Bruteyn and Dennis W. Bowden, arising out of the same conduct forming the basis of Bazemores guilty plea today. The SEC charged Bruteyn, Bowden, and others with raising as much as $55 million through the fraudulent offer and sale of AmeriFirsts secured debt obligations and collateral secured debt obligations. The SEC also charges that AmeriFirst and its sales agents targeted and lured many elderly investors to invest their retirement savings with AmeriFirst based on promises that the investments had little or no risk and were guaranteed through the protection of a commercial bank and numerous insurance companies.
In documents filed in Court today, Bazemore admitted that he willfully made false and fraudulent statements of material facts and material omissions to investors and potential investors in the securities offerings. For example, he falsely represented that AmeriFirsts secured debt obligations and collateral secured debt obligations were guaranteed by a commercial bank and that the Lloyds of London Insurance Company insured all funds invested with AmeriFirst. In addition, in connection with AmeriFirsts secured debt obligations and collateral secured debt obligations offered by Capital First, Bazemore neglected to state certain material facts to those AmeriFirst investors and potential investors that were necessary to ensure full disclosure to those investors, such as failing to disclose that funds invested in the secured debt obligations and collateral secured debt obligations were not, in fact, invested in certificates of deposit that were insured by the Federal Deposit Insurance Corporation (FDIC). As Bazemore admitted he well knew, funds invested with AmeriFirst were never guaranteed by a commercial bank or insured in any way by Lloyds of London. Further, funds invested with AmeriFirst by its investors were not used to purchase or invest in certificates of deposit (CDs) that were insured by the FDIC or otherwise.
In connection with the securities offered by Secured Capital on behalf of AmeriFirst, Bazemore also knowingly and willfully made false and fraudulent statements to investors and potential investors, including claiming that all funds invested with Secured Capital would be placed in FDIC-insured CDs or in pools of FDIC-insured CDs. Further, in connection with the secured debt obligations and collateral secured debt obligations offered by Capital First, Bazemore willfully omitted stating certain material facts to AmeriFirst investors and potential investors, such as that all funds invested with Secured Capital Trust would be diverted for the purchase of common stock in InterFinancial Holdings, Inc. (IFCH), a thinly-traded penny stock that traded on the Pink Sheets of the National Association of Securities Dealers Automatic Quotation National Market System (NASDAQ) that had minimal capitalization or assets; that associates of Bazemore owned millions of shares of IFCH stock; and that investments made with Secured Capital Trust, including investing in IFCH, held significant risks to those investors that all or a portion of their investments would be lost due to the volatility and lack of capitalization and assets of IFCH.
While stating that the investigation is ongoing, U.S. Attorney Roper praised the investigative efforts of the Federal Bureau of Investigation, the Federal Deposit Insurance Corporation-Office of Inspector General, the Texas State Securities Board, the Securities and Exchange Commission, and the Florida Office of Financial Regulation. The case is being prosecuted by Assistant U.S. Attorney Jeffrey J. Ansley and Special Assistant U.S. Attorney Stephanie Tourk.
# # #
Last Updated 10/24/07
contact the OIG